<html>
<title> - S. Hrg. 109-124 SCHOOL NUTRITION PROGRAMS</title>
<body><pre>[Senate Hearing 109-124]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 109-124

                       SCHOOL NUTRITION PROGRAMS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 15, 2005

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov




                 U.S. GOVERNMENT PRINTING OFFICE

20-613                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Steven Meeks, Majority Legislative Director

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

School Nutrition Programs........................................    01

                              ----------                              

                        Tuesday, March 15, 2005
                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, a U.S. Senator from Georgia, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    02
Leahy, Hon. Patrick, a U.S. Senator from Vermont.................    16
                              ----------                              

                               WITNESSES

Dole, Hon. Elizabeth, a U.S. Senator from North Carolina.........    03

                                Panel I

Hopgood, Annette Bomar, Director, School and Community Nutrition
  Program, Georgia Department of Education, Atlanta, Georgia.....    10
Johnson, Karen, School Nutrition Association President, Director 
  of Child Nutrition Programs, Yuma, Arizona.....................    05
Jonen, Ruth, School Nutrition Association President-Elect, 
  Director of Food Service, Hoffman Estates, Palatine, Illinois..    07
Rivas, Dora, Chair, School Nutrition Association Public Policy 
  and Legislative Committee, Director, Food and Child Nutrition 
  Services, Dallas 
  Independent School District, Dallas, Texas.....................    09
                              ----------                              

                                APPENDIX

Prepared Statements:
    Dole, Hon. Elizabeth.........................................    24
    Hopgood, Annette Bomar.......................................    29
    Johnson, Karen...............................................    26
                              ----------                              



                       SCHOOL NUTRITION PROGRAMS

                              ----------                              


                        TUESDAY, MARCH 15, 2005,

                                      U.S. Senate,,
         Committee on Agriculture, Nutrition and Forestry,,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room SH-215, Hart Senate Office Building, Hon. Saxby Chambliss 
[Chairman of the Committee] presiding.
    Present or submitting a statement: Senators Chambliss, 
Harkin, Leahy, and Salazar.

STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA, 
  CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. This hearing will now come to order. I 
welcome you all as we discuss the school nutrition programs.
    Good nutrition is important for good health, and our school 
nutrition programs are a key component of our efforts to 
provide healthy, nutritious meals to our Nation's 
schoolchildren. According to the United States Department of 
Agriculture which administers these programs, over 1.5 billion 
school breakfasts and over 4.8 billion school lunches were 
served in 2004. Of these meals, over 82 percent of the 
breakfasts and over 59 percent of the lunches were served to 
children from low income families for which the overwhelming 
number of these meals were served as free. For some of these 
children, the school nutrition programs may be the healthiest, 
most balanced meals of their entire day.
    We appreciate the efforts of our school nutrition 
professionals, many of whom are visiting with us today, for the 
job they perform to ensure that our young people have a healthy 
start on life. I will say that as the husband and a father of 
two school teachers, I hear constantly from my wife as well as 
my daughter about the positive reaction, the increased 
attention span, and the increased ability to learn from their 
children who are provided with breakfast each morning. It makes 
a huge difference, and to you folks who are involved in the 
school nutrition business, we can't tell you how much we 
appreciate the great work you do. We thank you for being here 
today and we look forward to this hearing this morning.
    At this I'll turn to my friend and ranking Democratic 
member for any comment he would like to make. Senator Harkin.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Thank you very much, Mr. Chairman.
    Thank you very much for calling this very important 
hearing. It's always a pleasure to be joined by our friends 
from the School Nutrition Association. I also want to welcome 
the Iowans here today, Virginia Bechtold, the president of the 
Iowa School Nutrition Association, Teresa Neese, and the rest 
of the Iowa delegates in town.
    Last year this committee successfully reauthorized the 
Federal Child Nutrition programs with enormous bipartisan 
support. The Child Nutrition and WIC Reauthorization Act of 
2004 not only improved the access of low income children to 
Federal child nutrition programs but also included provisions 
that I believe will dramatically improve how our kids eat at 
school.
    Kids today face a minefield of nutritional risk. From the 
moment they get up in the morning till the time they go to bed 
at night they have dozens of opportunities to consume an 
unhealthy diet and far too few chances to eat healthy diets. It 
is no wonder that the Department of Agriculture found that 
scarcely any school-age children and adolescents meet all 
scientific recommendations for a sound diet. Even our public 
schools have been inundated by candy and soft drinks and snacks 
that are high in sugar and salt and fat. Too often, children 
don't have the time or opportunity for exercise and physical 
activity.
    I just saw a figure just not too long ago, Mr. Chairman, 
that said that 80 percent of our elementary school kids in 
America today get less than 1 hour of physical activity a week 
in school.
    The Chairman. How many hours of television?
    Senator Harkin. Exactly. We are not getting enough physical 
activity out there either.
    We are making some progress. Last year's Child Nutrition 
bill included a provision under which schools will establish 
local school wellness policies. These wellness policies will 
include goals for nutrition education and physical activity, as 
well as nutritional guidelines for all of the food sold and 
made available on school grounds. The legislation gives local 
communities the authority to set the standards themselves 
according to local needs. In doing so are required to involve a 
diverse group of individuals including parents and students, 
school officials and the public.
    Local school wellness policies represent an historic 
opportunity for our schools to promote healthy nutrition and 
physical activity among children and adolescents. I'm eager to 
hear from our witnesses today about their efforts to give kids 
healthier choices at school and to implement their local 
wellness policies. I thank our witnesses for their 
participation in this hearing today, and I also hope we will 
hear some comments on the free fruits and vegetables programs 
that are now in eight States and over 200 schools and growing 
very rapidly.
    Again, Mr. Chairman, I want to thank you for calling this 
hearing and I see that one of our leaders in this area is our 
leadoff witness and we certainly welcome our colleague here 
today, too. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. Our first witness is a 
former member of this committee and dear friend of mine, and a 
lady who has a keen interest in this particular issue. She's a 
great American and doing a terrific job of representing the 
State of North Carolina, my friend, Senator Dole. We welcome 
you; we look forward to your testimony.

  STATEMENT OF HON. ELIZABETH DOLE, A U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Dole. Thank you, Mr. Chairman, Senator Harkin, good 
morning. Thank you so very much, Mr. Chairman, for convening 
this important hearing and for allowing me the opportunity to 
testify this morning.
    Nutrition programs, a central mission of this committee, 
have always enjoyed a very special tradition of bipartisan 
support. This past year, working together, we crafted the Child 
Nutrition and WIC Reauthorization Act of 2004, which the 
President signed into law on June 30. We know that child 
nutrition and education are inextricably linked. It really is 
fairly simple, isn't it? When children are hungry, they don't 
learn. To compete effectively in the world market, the United 
States must have an educated workforce. To educate our children 
to their maximum potential, we must have strong and effective 
child nutrition programs if we expect each and every child to 
meet his or her full potential.
    The President has continued his support for child nutrition 
as demonstrated by his budget proposal. A very lean budget but 
one that recognizes the importance of the child nutrition 
programs. I'm encouraged that the President's proposed budget 
does not involve program cuts or budget caps for child 
nutrition. The nutrition programs are an important component of 
this committee's jurisdiction, and I know that you, Mr. 
Chairman, and the other members of the committee will work hard 
to ensure that the fundamental mission of these programs is not 
compromised.
    I look forward to working with you on these challenges and 
I urge my colleagues on this committee to follow the 
President's lead and work to protect these child nutrition 
programs.
    Let me also raise one area of particular interest and 
concern for me: the eligibility requirements for the school 
lunch and breakfast programs should be consistent with the WIC 
program. As we know, the school lunch and breakfast programs 
have three income categories, free, reduced, and paid meals. 
The children from families whose income is between 130 percent 
of poverty and 185 percent of poverty are eligible for reduced 
price meals. It is the smallest of the three categories. 
Unfortunately, State and local school boards have informed me 
that many parents are finding it difficult to pay the reduced 
price fee, and for some families the fee is an insurmountable 
barrier to participation.
    There are a number of great individuals who work daily with 
these children who take money from their own pockets to help 
bridge this inequity. In fact many of them, Mr. Chairman, are 
here today in this hearing room representing the School 
Nutrition Association, and I thank them for all the hard work 
that they do on behalf of our children.
    This is why I am a strong supporter of legislation to 
eliminate the reduced price fee and harmonize the school meal 
income eligibility guideline with WIC. If a family qualifies 
for free WIC benefits they should also qualify for free school 
meals. It just makes sense, and I fundamentally believe this is 
the right thing to do. For those youngsters who currently fall 
into the reduced price category, this will help make all the 
difference in the world; the difference between sitting in 
class hungry and malnourished or comfortable and attentive.
    For a number of these children, particularly in today's 
fast food climate, the meals they are offered at school are by 
far, as you have said, Mr. Chairman, the best they have all day 
long. Last year's child nutrition legislation authorized a 
pilot program funded from discretionary dollars to eliminate 
the reduced price fee in up to five States. It is imperative 
that we begin to make headway on this initiative as a part of 
our national commitment to eliminating hunger and nutritional 
deficiencies among the children of this country.
    I've written to Appropriations Chairman Cochran, 
Subcommittee Chairman Bennett, and ranking member Kohl asking 
for funds to initiate the pilot we authorized. I encourage the 
members of this committee to join me in this request. I've 
suggested an appropriation of $29 million, but the exact amount 
will ultimately depend on which States are selected by the 
Department of Agriculture.
    Mr. Chairman, I applaud you for your leadership and your 
commitment to child nutrition; Senator Harkin also. In 
addition, let me also take this opportunity to thank you for 
your staunch defense of all sectors of agriculture across this 
country. I know our farm families in North Carolina are so 
pleased to have you at the helm of this committee, Mr. 
Chairman, and I thank you for the opportunity today to address 
my concerns.
    Thank you.
    [The prepared statement of Senator Dole can be found in the 
appendix on page 24.]
    The Chairman. Thank you very much, Senator Dole, and just 
know that Senator Harkin and I both look forward to working 
with you as we explore the expansion of this pilot program, 
which obviously was a great idea, No. 1, and is something that 
is very much needed in our nutrition programs. I would 
encourage all of our folks to grab a handful of Georgia peanuts 
as they go back home because there's plenty of energy and 
nutrition in here. [Holds up a pocket of Georgia Peanuts]
    Senator Dole. There's also North Carolina peanuts too.
    [Laughter.]
    The Chairman. We'll even share that with them. Thank you 
very much, Elizabeth.
    For our second panel the committee calls forward represents 
of the School Nutrition Association. SNA is a national 
nonprofit professional organization representing more than 
55,000 members, including over 7,000 in my State of Georgia who 
every day provide nearly 33 million high-quality, low-cost 
meals to students across the country. The association and its 
members are dedicated to feeding children safe and nutritious 
meals.
    SNA members work in all aspects of the school nutrition 
field, from directing school district nutrition and food 
service departments, to conducting nutrition education, to 
managing individual school kitchens, and staffing school 
cafeterias and kitchens. SNA has a 59-year-history, having been 
founded the same year the National School Lunch Act passed in 
Congress, an act which incidentally is named for former Senator 
Richard B. Russell, who is certainly a legend in this 
institution and happens to be from my home State of Georgia, 
and who served on this committee from 1941 to 1946.
    We are pleased this morning to introduce Karen Johnson, 
president of SNA, Ruth Jonen, the president-elect of SNA, Dora 
Rivas, chair of SNA's public policy and legislative committee, 
and Ms. Annette Bomar Hopgood, director of the school and 
community nutrition program of the Georgia Department of 
Education. Ladies, we're particularly pleased to have you here 
this morning. We thank you again for the great work you do and 
we look forward to your testimony this morning.
    Ms. Johnson, we'll start with you.

   STATEMENT OF KAREN JOHNSON, SCHOOL NUTRITION ASSOCIATION 
 PRESIDENT, DIRECTOR OF CHILD NUTRITION PROGRAMS, YUMA, ARIZONA

    Ms. Johnson. Thank you. Chairman Chambliss, our 
congratulations to you on assuming the chairmanship of this 
committee. We look forward to continuing the special tradition 
between child nutrition and great State of Georgia. Senator 
Harkin, and all members of the committee, thank you for your 
leadership on the Child Nutrition and the WIC Reauthorization, 
and for continuing the tradition of this hearing.
    I am Karen Johnson, president of the School Nutrition 
Association, formerly the American School Food Service 
Association, and I'm also the director of child nutrition 
programs in Yuma, Arizona. With me is Ruth Jonen, our 
president-elect, food service director from Palatine, Illinois; 
Dora Rivas, the chair of our public policy and legislative 
committee, and director of child nutrition in Dallas, Texas; 
and Annette Hopgood, the director of child nutrition for the 
State of Georgia. We are supported by a few hundred of our 
dedicated colleagues and our counsel, Marshall Matz.
    As we meet here today, we are all aware of the difficult 
budget challenge that you face and that we face as Americans. 
The size of the Federal deficit and national debt is simply 
daunting and overwhelming. We are concerned about what it means 
for the economic health of the United States and for future 
generations.
    Nevertheless, we are here on behalf of our most important 
resource, our children. We believe deeply that the child 
nutrition programs we administer are vital to the education of 
our children and their health and well-being. As we all know, 
hungry children do not learn. Without these important child 
nutrition programs, children are distracted in school and less 
receptive to the lessons being taught, students are more prone 
to illness, and school attendance suffers.
    We therefore ask that these programs be exempt from any 
reconciliation or budget cap that Congress may enact. President 
Bush has held the child nutrition programs harmless in the 
drive to cut the deficit and we believe that is the correct 
position for the country.
    In 1981, the child nutrition programs were cut by 
approximately one-third and we lost 3 million children from the 
school lunch program. It took over 20 years before 
participation in the program rebounded to the pre-1981 level.
    In 2005, the programs are struggling financially much more 
than they were in 1981. The Federal reimbursement rates are 
generally not adequate to cover the cost of the meal. The 
current Federal reimbursement rate for a free lunch is $2.24 
per meal with an additional 17 cents in USDA commodities. It is 
very challenging and often impossible to produce a nutritious 
meal for that amount of money. Even a small cut of 5 percent or 
10 percent would have a dramatic effect on meal quality and 
student participation. Historically, we have found that for 
every one-cent increase in the price of a meal to children, 
schools lose 1 percent participation. We believe that any 
decrease in the Federal reimbursement rate at this time would 
have a much greater effect.
    Mr. Chairman, allow me to mention in passing that it is the 
shortfall in the Federal reimbursement rate that has in great 
part led to the introduction and expansion of other food items 
through a la carte lines and vending operations. Research has 
demonstrated that students who choose school meals have better 
diets than children who do not. They consume more fruits, 
vegetables, milk, and have fewer overall calories from fat.
    Last year in the reauthorization act, the Congress 
authorized a pilot program in up to five States to eliminate 
the reduced price meal program. Under the pilot, the free meal 
eligibility guideline would be increased from 130 percent to 
185 percent of poverty, the same guidelines used in WIC to 
determine who is eligible for free WIC benefits. We urge 
funding for this important pilot.
    Over 500 local and State school boards have endorsed the 
elimination of the reduced price programming. For too many 
families in the income category, the reduced price fee of 40 
cents per meal per child for lunch and 30 cents for breakfast 
is simply too much money, and therefore, a barrier air to 
participation. The reduced price category is the smallest of 
the three income categories; approximately 9 percent of the 
children in the school lunch program are in the reduced 
category. Eliminating the reduced fee would extend the benefits 
of the school meal program to low income working households and 
we believe we should be tested through the pilot program.
    The amount of money needed for the pilot would, of course, 
depend on the size of the States selected by USDA to 
participate. The department would not select the States until 
the money is appropriated. Senator Dole, the sponsor of this 
legislation proposing the elimination of the reduced price 
category, has suggested an appropriation of $29 million. We 
support this amount.
    The summer food service program is the most underutilized 
of the Federal nutrition programs. While almost 16 million 
children participate in the free or reduced price meal programs 
at school, only 2 million children are served during summer 
months. One of the biggest barriers to participation is the 
lack of approved sponsors. One of the major barriers to 
recruiting sponsors is the burdensome administrative 
requirements for the program.
    Several years ago Chairman Lugar authored a provision 
calling for a pilot program to demonstrate the effects of 
simplified administration of the program. The 14-State pilot 
reduced paperwork by using the same method of program 
reimbursement used in the regular school meal program.
    The pilot worked well and last year the pilot was made 
permanent and the number of States participating in the program 
was increased from 14 to 20. We would encourage the Congress to 
further increase the number of States until every State 
operates under the simplified procedures of the Lugar pilots.
    Childhood obesity has captured the Nation's attention, as 
well it should. The statistics are frightening. Yet for all 
we're spending as a Nation on Federal nutrition programs and 
health care costs for diseases where obesity is a risk factor, 
we spend almost nothing on nutrition education and nutrition 
promotion. The reauthorization act authorized several 
initiatives in this area.
    The first is teaching children to make healthy choices in 
the foods they eat and the importance of physical activity. The 
act authorizes a team nutrition network that would combine 
support for the team nutrition program with a program of grants 
to the States and local districts to deliver both team 
nutrition materials and programs developed by the States and 
local districts.
    Children today are bombarded with messages about what they 
should eat. It is essential that children also receive 
balanced, positive messages to reinforce the health curriculum 
being taught in the classroom. Therefore, we urge the Congress 
to appropriate 50 cents per child per year for nutrition 
education and nutrition promotion. This modest amount of money 
would complement the investment being made in the nutrition 
programs by helping children learn to make healthy food choices 
and engage in physical activity.
    Mr. Chairman, Senator Harkin, members of the committee, 
thank you again for the opportunity to present this testimony. 
Now I would like to turn to my fellow panel members and asked 
them to present their brief comments. Ruth Jonen, the SNA 
president-elect will focus on the new local wellness policy 
section of last year's reauthorization law, a section we are 
very excited about, and what we're doing to gear up to 
implement it. She will be followed by Dora Rivas, food service 
director from Dallas Independent School District in Texas, and 
then Annette Hopgood from the great State of Georgia.
    Thank you.
    [The prepared statement of Ms. Johnson can be found in the 
appendix on page 26.]
    The Chairman. Thank you.
    Ms. Jonen.

     STATEMENT OF RUTH JONEN, SCHOOL NUTRITION ASSOCIATION 
  PRESIDENT-ELECT, DIRECTOR OF FOOD SERVICE, HOFFMAN ESTATES, 
                       PALATINE, ILLINOIS

    Ms. Jonen. Good morning. Mr. Chairman, Senator Harkin, 
members of the committee, thank you very much for this 
opportunity to add a few words about the local wellness policy 
section of last year's reauthorization bill. We believe this 
section presents a great opportunity to improve the nutritional 
environment in our Nation's schools.
    We wish to commend the committee for this new, imaginative, 
and important section of the law. As you know, Section 204 of 
the reauthorization will require each local educational agency 
that participates in Federal child nutrition programs, to 
establish a local wellness policy. The local policy shall 
include goals for nutrition education, physical activity, and 
nutrition guidelines for foods available on the school campus. 
The law is not prescriptive in dictating what the local goals 
shall be, only that the local education agency shall put it on 
their agendas and establish goals that best serve its 
community.
    The School Nutrition Association believes this was a very 
creative approach to a very difficult challenge. This section 
also complements other parts of the legislation that seek to 
improve nutrition education and nutrition promotion. The new 
wellness initiative has already stimulated a lot of thought and 
discussion across the country and within our association. 
Internally, the School Nutrition Association has convened a 
task force that just met a couple of weeks ago here in 
Washington to develop a tool to assist local school districts 
draft their own wellness policy. The task force gathered data 
and sample policies from across the country and we'll be 
sharing those practices with other school districts. Our goal 
is to focus attention on wellness policies without being 
prescriptive.
    A good example of establishing a partnership approach to 
the local wellness policy comes from Karen Johnson's own home 
State of Arizona. Championed by the State superintendent for 
education, Arizona has worked with a team of educators, school 
administrators, school food service directors, health 
professionals, and private industry to develop a model policy 
as a guide for schools in Arizona. The model has been piloted 
in eight schools and evaluated for both nutritional and 
financial impact. All schools realized at least the same amount 
of revenue from a la carte and vending sales. In fact some saw 
substantially greater income from these two revenue sources 
after implementing that policy.
    Senator Harkin, I know you are particularly interested in 
school wellness policies so we did a little background research 
on how schools in Iowa are implementing the local wellness 
policies. Currently, schools across your State and beginning to 
establish their committees that will put together their local 
wellness policies. The Iowa School Nutrition Association is 
partnering with the Iowa Department of Education to do five 
workshops across the State to help school understand their 
responsibilities and the requirements under the law for local 
school wellness policies in last year's child nutrition bill. 
The Iowa Department of Education is also working with the Iowa 
Association of School Boards to form a task force that will 
draft a model policy for schools to use as a starting point for 
their own local wellness policies.
    In general, as is the case across the country, a wide 
variety of stakeholders in Iowa are coming together to 
collaborate on the local wellness policies. We are excited by 
the energy and the enthusiasm that they are bringing to their 
task. Such a level of collaboration on school nutrition issues 
is unprecedented and it is, in my opinion, vindication of the 
wisdom of this committee in putting the local wellness policies 
into the law.
    In short, Mr. Chairman, Senator Harkin, we look forward to 
working with educators, parents, students, community health 
professionals, and other interested parties to implement the 
law. We are excited by the opportunities presented by the local 
wellness policies and we believe they present an extraordinary 
opportunity to transform our children's eating habits at 
school. The larger goal, of course, is to promote student 
health and reduce childhood obesity. Thank you so much for 
including this section in the law.
    Now I'll turn it over to Dora. Thank you.
    The Chairman. Thank you, Ms. Jonen.
    Ms. Rivas.

 STATEMENT OF DORA RIVAS, CHAIR, SCHOOL NUTRITION ASSOCIATION 
  PUBLIC POLICY AND LEGISLATIVE COMMITTEE, DIRECTOR, FOOD AND 
 CHILD NUTRITION SERVICES, DALLAS INDEPENDENT SCHOOL DISTRICT, 
                         DALLAS, TEXAS

    Ms. Rivas. Thank you, Ruth.
    Mr. Chairman, Senator Harkin, and members of the committee, 
from a local perspective, one of the most important reforms we 
can have in the school nutrition programs is to eliminate the 
reduced price meal category. It is truly a barrier to 
participation in the program and access to a nutritious meal. 
Forty cents may not sound like a lot in Washington, but back 
home 40 cents for lunch per child per day and 30 cents for 
breakfast per child per day adds up, and it is a significant 
amount for low income children to pay. When one extends this to 
an average low income family of four who already qualifies for 
WIC, they just cannot afford even that.
    In Dallas ISD, our current enrollment is approximately 
158,000 students. Of those, 109,000 students, 69 percent of our 
enrollment, are eligible for free meals, and 14,200 students, 9 
percent of our enrollment, are eligible for reduced price 
meals. What I see is a gap between those that are eligible and 
those who actually participate. What is interesting is that 
those who qualify for reduced price meals, only 14 percent 
participate in the breakfast program and only 75 percent of 
those participate in the lunch program.
    Studies have shown the relationship between nutrition and 
learning. In my previous job as food service director with the 
Brownsville Independent School District in Brownsville, Texas 
under a special assistance, provision two, students things were 
offered free meals regardless of their ability to pay. When we 
initially went into the program about 10 years ago I received 
phone calls from reduced price category families indicating how 
appreciative they were not to worry about their children having 
a healthy meal at school. The 40 cents for lunch and 30 cents 
for breakfast was a true hardship for their families.
    Mr. Chairman, I agree with your wife and daughter in their 
observations. What I have learned in observing students 
throughout the years is that students who are hungry are less 
attentive in the classroom and are more likely to perform 
poorly in school, and in many cases the school meal is the only 
nutritious meal they receive all day. I also learned that 
although it may be a parent's responsibility to provide for 
their family, when a child shows up in the cafeteria line and 
doesn't have money to pay for their meal, it is not their fault 
and they are still hungry.
    In Dallas, I pointed out earlier that I see a gap between 
those that are eligible for reduced prices and those who 
actually participate in the program. Evidence of students not 
having money to pay for their meals is the over $85,500 that is 
spent in Dallas each year to prepare cheese sandwiches and milk 
for those students who didn't have money to pay for their 
meals. As food service directors and cafeteria employees at 
schools, we cannot in good conscience let a student go without 
eating, and thus, we end up absorbing the cost of this food. 
This translates to lost revenue that is not being spent on 
meals being served to all students.
    Also, on those days, the child is missing other very key 
nutrients that are important in their growth and development. 
We do not want any of our children to be left behind, 
especially the disadvantaged. The gap to access for a 
nutritious meal and improved student classroom performance for 
those disadvantaged students can be closed by eliminating the 
reduced price meal category. These students who qualify for 
reduced prices are the same students that qualify for benefits 
under the WIC program.
    Thank you for your time and attention this morning. 
Childhood wellness is a big issue across the Nation. Providing 
adequate nutrition to our children should receive the highest 
legislative priority. Our biggest investment is their children. 
They are our future. Appropriating funds to provide all 
students with a healthy, safe meal at no cost in a nurturing 
environment should be our ultimate goal. Eliminating the 
reduced price meal, or at minimum, appropriating funds for the 
pilots to test this initiative is an important move forward.
    Thank you.
    The Chairman. Thank you, Ms. Rivas.
    Ms. Hopgood, a special welcome to you. We look forward to 
hearing from you.

   STATEMENT OF ANNETTE BOMAR HOPGOOD, DIRECTOR, SCHOOL AND 
 COMMUNITY NUTRITION PROGRAM, GEORGIA DEPARTMENT OF EDUCATION, 
                        ATLANTA, GEORGIA

    Ms. Hopgood. Thank you very much, Mr. Chairman and Mr. 
Harkin. We certainly appreciate being here today and want to 
congratulate you on your election to chair of this very 
important committee.
    I guess I'm here today representing not only the Georgia 
Department of Education, but also other State agencies across 
the country who are responsible for implementing those statutes 
that originate here in this committee. Despite my youthful 
appearance, I am currently the most senior State agency 
director in the country, so I'm here to offer you my own and my 
department's assistance in your chairmanship as you go through 
this process of making important decisions about the school 
nutrition program. We especially appreciate your continuing the 
tradition here today of having this hearing. This is an 
opportunity for those of us who are practitioners to see you 
face-to-face, thank you for what you are doing for our program, 
and to let you know that we look to you for the leadership that 
we know that you will provide.
    I bring greetings to you today from the State 
superintendent of schools, Kathy Cox, and she wanted me to 
remind you and share with you that she has a very strong 
opinion that school meals do in fact have a tremendous impact 
on and are an integral part of her efforts for Georgia to lead 
the Nation in improving student achievement. Over the last 4 
weeks I have been able to meet with over 50 local school board 
members through the Georgia School Boards Association meeting 
at both Lake Blackshear and at Lake Lanier, where we discussed 
the relationship between health and academic achievement, and 
introduced the concept of the local wellness policies to these 
board members who are very excited about finding something 
within the school environment that they can control that will 
have positive impact on the health of children and their 
academic achievement. There are a lot of things that we cannot 
control that our children bring to school each day, but we can 
control the school environment, and they clearly understand 
that.
    Down to my key point, however, it's just downright exciting 
to see Georgia peanuts again in this committee room. As you 
well know, there is a special and a long-standing tradition 
between Georgia and the child nutrition program and you alluded 
to this earlier. I constantly remind my colleagues across the 
country that it is the Richard B. Russell National School Lunch 
Act that we work diligently to implement across this country. 
Each time a Georgian, Senator Russell, Senator Talmadge, has 
chaired this committee, this distinguished committee, the 
school nutrition program has made historical advances. We look 
forward to your leadership and we have great expectations for 
your leadership.
    Today, I am joined by a Georgia delegation numbering over 
70.
    The Chairman. By far the best-looking group here.
    Ms. Hopgood. I know. It's just a shame but that's just the 
way it is. About half of those with us today are industry 
partners who help us get the supplies and materials and the 
foods into our schools that we need to provide the services 
that we do. The 7,004 members of the Georgia School Food 
Service Association and my own staff at the department of 
education and Mrs. Cox are available to help you in any way 
that we possibly can in executing your leadership role.
    We offer you the practical knowledge that we have gained by 
serving 1.1 million, or 74 percent of our children, lunches 
every day at school. That represents about 5 percent of all the 
lunches that are served across this country, which is very 
significant. We have one of the highest rates of student 
participation in the lunch program and the breakfast program in 
the country. We also serve 500,000 breakfasts and snacks every 
day. Systems such as Thomas County in south Georgia are finding 
creative ways to take breakfast into the classroom so that they 
can reach more children and can also extend the instructional 
time for our classroom teachers.
    I'm just delighted to be here today and appear with the 
School Nutrition Association. I've been affiliated with the 
association since you don't what to know when. I'm also very 
delighted to be affiliated with their efforts on behalf of 
young people. I'll be happy to answer any questions today or in 
the future.
    Thank you.
    [The prepared statement of Ms. Hopgood can be found in the 
appendix on page 29.]
    The Chairman. Thanks to each of you, again, very much for 
your work, and particularly thank you for being here today to 
help spread the good message about what's happening out there 
all across America with this program. It's pretty obvious that 
the President thinks an awful lot of the fact that we need to 
make sure that our children are eating well before they begin 
school each day. That's one reason in these very difficult 
budget times that we're in right now that he has seen fit not 
to ask us to achieve any savings in this program.
    Ms. Johnson, many of us can imagine that kids can sometimes 
be picky about what they eat. Having two myself, I know exactly 
what that's all about. Knowing that school meals must meet 
Federal guidelines for nutrition, specifically for the meals 
that you serve, how difficult is it for you to plan your menus 
with food that kids want to eat and that also meets those 
nutritional requirements?
    Ms. Johnson. We're serving foods that children do want to 
eat. We're serving pizza with low fat cheese, perhaps more 
fiber in the crust. It's meeting the dietary guidelines. We 
have fresh fruit and vegetable bars. We have low far milk. 
There's juice. I believe we are serving those foods that 
children want to eat.
    The Chairman. I'm curious too about your summer program. 
Tell me again what percentage of folks it is you reach. I know 
some of our local programs where they're taking advantage of 
that, but the need for additional sponsors and the problem with 
getting additional sponsors, is a lot of that problem due to 
the Federal paperwork involved? If so, can you enlighten us a 
little bit on that please?
    Ms. Johnson. Yes, it's another set of paperwork that's 
pretty detailed and is pretty burdensome to the program. I know 
in Arizona I was able to--and it's one of the States that I'm 
able to just go right into the summer program under the same 
paperwork that I've operated and the same rules and regulations 
that we run the regular program on. It's an easy transition. It 
doesn't put up a barrier to myself as a sponsor, or perhaps 
someone in the community that would like to be a sponsor. It's 
easy transition.
    In some States it's not simplified paperwork and it is a 
barrier.
    The Chairman. Ms. Rivas, I note that obviously commodities 
given to school systems by USDA plays an integral role in the 
diets that you provide for our children. Could you tell us a 
little bit about how that works from the standpoint of 
practical day-to-day operation? Has the amount of commodities 
given to the systems fluctuated over the last several years?
    Ms. Rivas. We can always use more commodities, particularly 
as difficult a time as we have making ends meet. The quality of 
commodities has been improving through the years. We have had 
simplified processes in being able to take commodities that our 
farmers produce and being able to produce them into products 
that are premanufactured that students will like. For example, 
taking whole turkeys and already having them processed into 
turkey roast or chicken nuggets, making them a lot more 
acceptable to our students.
    The Chairman. Ms. Hopgood, you mentioned what's happening 
in Thomas County, which happens to be adjoining to me. I know 
those folks down there and I know they run an awfully good 
school system. Is it a matter of thinking out-of-the-box or are 
these some ideas that have come out of various meetings like 
this that you've held around the State or around the country? 
Could you just enlighten us a little bit on that?
    Ms. Hopgood. I feel sure that there are efforts around the 
country to do breakfast in the classroom, grab-and-go 
breakfast. In some of our schools we have close to 100 percent 
of the children that are in fact eating breakfast, just like 
they eat lunch, which is almost amazing. We serve about 55 
percent of our free and reduced children at breakfast, but we 
also have one of the highest rates of paying children who eat 
breakfast at school, because parents see that as a convenience 
to them because they are both working and get up and out.
    In the particular case of Thomas County, they have 
exceptional leadership. The school nutrition director there, 
Karen Green, whose husband happens to be the school 
superintendent--I say they sleep together and that's the reason 
she does so well in her position there.
    [Laughter.]
    Ms. Hopgood. She would be very disappointed if I didn't 
tell you that today. She worked very diligently with her school 
principals and her classroom teachers so that they could 
implement procedures that were very efficient and that moved 
that process on there. She has schools where they're serving 
not only economically needy children but they're reaching 
almost 100 percent of their student population at breakfast. We 
know there's no research stronger that shows the relationship 
between health and academic achievement than that related to 
breakfast and academic achievement. We have a lot of people--
that's being done in north Georgia, it's being done in DeKalb 
County. It's been very successful where they have worked 
through the efficiency issues, the procedures locally.
    The Chairman. Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    I'm sorry, I'm going to have to leave. I have another 
committee, a Labor Committee I've got to go to, but I did want 
to hear the testimony and again to express my gratitude to all 
of you here in the School Food Service Association which is now 
called the School Nutrition Association, for all that you've 
done for so many years to get our kids a good healthy start in 
life. If it weren't for the school breakfast and the school 
lunch program, I can dare say what shape our country would be 
in today. The vision of a Richard Russell from Georgia and 
others who came before us have been fulfilled by all of you in 
this room and I thank you for that.
    As you mentioned in your testimony, Ms. Johnson, Ms. Jonen, 
you too, we do have, by all accounts and by the findings of the 
Centers for Disease Control and Prevention, we do have an 
obesity epidemic among our kids. We know that. It's there, and 
we can't sweep it under the rug.
    We also know that diabetes is happening earlier and earlier 
in life. It's something that calls for pretty immediate action. 
I don't know that we can think about what we might do in the 
next decade or two. We ought to be thinking in terms of what we 
do next year and the year after and the year after to starting 
changing our course of action in our schools. Kids learn at an 
early age what to eat and what to like. When they are bombarded 
by up to 40,000 TV ads before they ever start school about high 
sugar, high fat content foods, that's what they develop a 
liking for.
    There were those, back when the school lunch program 
started who said this had no business in school. Schools were 
there to teach kids, educate them, not to feed them. We've 
gotten over that hurdle. It's like physical exercise. When I 
was a kid growing up, I bet you too, Mr. Chairman, we had 
recess and we had to go outside and do something. We had to. In 
Iowa about the only time you could stay indoors during recess 
or lunch period was if it was 20 below or something like that. 
Maybe you could stay inside.
    Senator Leahy. Not in Vermont.
    Senator Harkin. That's summer in Vermont. What the heck.
    [Laughter.]
    Senator Harkin. We now know that we've got to address this 
in our schools, which leads me to this whole idea of nutrition 
and wellness. Now you mentioned the wellness policies and 
things were moving ahead. I was somewhat concerned that schools 
around the country should develop their own, but what are the 
guidelines? A lot of people just don't know. We don't have the 
ability to understand what these guidelines ought to be, so in 
last year's appropriation bill I put in funding that was 
supported on both sides of the aisle for the Institute of 
Medicine to do a study, and to provide some guidelines. They're 
not mandatory, but to provide a checklist, guidelines that were 
scientifically based for schools to follow. Now I hope that 
guideline will be done maybe in a year, year-and-a-half, or 
something like that. I hope in the meantime you proceed on, and 
that school districts proceed on in developing their own 
wellness policies. If some of them are not scientifically 
based, then they can modify them later on.
    The second thing I wanted to just ask is that one of the 
areas of the testimony that the School Nutrition Association 
did not touch upon was the fruit and vegetable program. Again, 
this was something started in the 2002 Farm bill, started as a 
pilot project in four States. The idea was that a lot of kids 
they come to school--especially grade school kids, they come to 
school about 9:30 in the morning and they get the growlies. 
What happens? What do they start munching on? Or if you're in 
middle school and high school, it's always the vending machine. 
You can go out and get a nice high sugar drink, or you can get 
something that's high in sodium and that satisfies your 
growlies. The vending machines are there. I hope we're going to 
change our policy on those.
    The idea was, what if you provided to kids in school free 
fresh fruits and vegetables. Not just in the lunch room--
everywhere. Anywhere in the school. Not just you had to go to 
the lunch room at lunch time, but any time. We tested this 
theory out in four States, 100 schools, one Indian reservation. 
I can sit here today and tell you that not one of those 
schools, not one has asked to be taken off the program. In 
fact--I wouldn't say all. I don't know that figure, but most of 
them have asked, please keep us on it.
    This year it's been expanded now to eight States and we're 
about 250 schools now in this country. I've visited some of 
those and you see these kids eating these fresh vegetables. 
They're eating things like fresh broccoli. I saw kids eating 
fresh spinach. They never had it before. Eating carrots, eating 
everything from apples and oranges to bananas. I had one 
teacher this weekend told me in Iowa about this--she said, I 
saw a sixth-grade kid in a new school, this is a new school 
that had been added on, picked up a banana and tried to eat the 
banana with the peel on it. Had never had a fresh banana; 
sixth-grade kid.
    What I've found in these schools is these kids are eating 
these fresh fruits, kiwi fruits, oranges, apples, you name it, 
pineapple, and guess what, in the middle and high schools 
they're not putting money into vending machines. In the grade 
schools, the teachers say that kids are learning, they're 
calming down, they're studying better, they're happier kids. 
Again, it's been a very positive program and again I'm going to 
ask the Senate Appropriations Committee to add some more money 
for this.
    I guess my question after all that is, does the School 
Nutrition Association support a further expansion of the fruit 
and vegetable program?
    Ms. Johnson. Absolutely, Senator.
    Ms. Jonen. Senator, it's almost as though you were a plant 
in our audience yesterday. We had so many of our School 
Nutrition Association colleagues who are in States who do not 
have the opportunity to participate in the fresh fruit and 
vegetable program who are saying, what about me. I'm in 
Illinois and I would say, what about me? We can maybe scoot 
across the river into Iowa and pick your pocket a bit. That's a 
wonderful program that has a great potential. It needs money. 
If you are so inclined, we would be most happy to expand that 
program to every State in the country.
    Senator Harkin. God bless you. It's about 35 cents, less 
than 35 cents per child. That's for two servings a day. That's 
a pretty good investment. I thank you for that, and I thank you 
for support of and I hope that we can keep this moving. I know 
we can't do it overnight. I understand it. If we can keep this 
momentum and keep more and more States coming in--Mississippi 
just came online last year and from everything I've heard it's 
just been a resounding success in Mississippi too. We just need 
to keep expanding it.
    Thank you all very much.
    Thank you very much, Mr. Chairman. I apologize I have to 
leave.
    The Chairman. That's quite all right. Thank you for your 
keen attention, Senator Harkin, to this issue. I look forward 
to working hand in hand with you, as we always do on the 
Agriculture Committee in a bipartisan way, to make sure that we 
further promote the issues which we've talked about today. In 
addition to having a wife and a daughter who are teachers, I 
have a son-in-law in Georgia who's a vegetable farmer, so I'm 
particularly intrigued. He's in Georgia.
    Senator Harkin. Georgia is coming on board pretty soon.
    The Chairman. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. Let me brag about 
my grandchildren. I happen to have the pictures.
    The Chairman. We will trade.

  STATEMENT OF HON. PATRICK LEAHY, A U.S. SENATOR FROM VERMONT

    Senator Leahy. In the nutrition area, and I am not going to 
ask questions, I just want to make a short comment. Senator 
Cornyn and I are holding a hearing on joint legislation we have 
over in Judiciary.
    I mention that because there are a whole lot of issues, no 
matter what you read in the paper, that transcend partisan 
politics. Nutrition is one of them.
    Senator Dole was here earlier. She and her husband always 
had an interest in this. In fact, as many of you know, there 
have been a lot of pieces of Dole/Leahy and Leahy/Dole 
legislation over the years as there was before Dole/McGovern or 
McGovern/Dole. There still is.
    Senator McGovern and Senator Dole were down at the White 
House about 5 years ago to talk about their plans for a school 
lunch program in Africa, something that would have tremendous 
help in many of these countries because you have not only boys 
going to school because they could get fed, but you have girls 
going to school and the societal changes that would come out of 
that.
    I remember that, Mr. Chairman, because they were both 
standing there speaking at the podium, the seal of the 
President of the United States in front of it. President 
Clinton was waiting to speak after them. Bob Dole turns to him 
and he says, Mr. President, George and I are going to stay 
right here. You just stand back there. We like it with this 
seal.
    It is when we work together is when we find what we can do. 
We are talking about the budget on the floor and I am given 
reason to pause at the comment by some in Congress about the 
intention to place the burden of heavy budget cuts on food 
assistance programs to the expense of low income families.
    These are tough economic times. When people lose jobs and 
their incomes decline, programs like food stamps and school 
lunch end up, as you know, with increased participation. These 
programs do exactly what they were designed to do, support 
Americans in time of need of one of the most fundamental of 
life's necessities, food.
    I want to make sure that when people are talking about 
making cuts to the program that they understand the typical 
food stamp recipient is a child, is a child. The food stamp 
program delivers more food assistance to children than all of 
the other Federal nutrition programs.
    The school lunch program is also a crucial part of the food 
safety net. One of the hallmarks of this committee is to be a 
responsible steward of the food stamp and child nutrition 
program. Because of bipartisan cooperation and strong 
leadership, the food stamp error rate is the lowest in the 
program's history.
    We streamlined administration of the program by eliminating 
food stamp coupons in favor of electronic benefit cards, which 
can only be used for food. Last year, working together, we 
reauthorized WIC and the school meals program. We strengthened 
the integrity while protecting the eligibility of low income 
children.
    When you talk about getting savings from waste, fraud and 
abuse, it's not in those programs. We have worked hard together 
to ensure the dollar is spent on food assistance and not spent 
on waste.
    A piece of legislation that I sponsored a number of years 
ago on the WIC program has saved the taxpayers over $17 
billion. $17 billion. We make these programs work. There is 
unmet food needs in this country.
    I worry very much about the wealthiest, most powerful 
nation on earth. One of the few--certainly about the only 
powerful nation that has the ability to feed itself and have 
billions of dollars worth of food left over for export. We 
spend billions of dollars on fad diets in this country. We 
spend billions of dollars in throwing away waste food. To have 
hunger in America is immoral. It is not a political issue. It 
is immoral. It violates every precept.
    No matter what religion you might belong to, I guarantee 
you one of the precepts of the religion is to feed the hungry, 
and we should be doing that.
    Senator Dole pointed out that for many children, the 40 
cents required for a reduced price meal too often means they 
cannot afford to buy a school lunch. Now 40 cents does not seem 
like a lot to us, but for those children and their families, it 
can be a great hurdle.
    I appreciate the comments of the School Nutrition 
Association regarding the need for expanding the Lugar Pilot to 
make it easier for sponsors to participate in the summer food 
service program. It helped children in my state of Vermont 
considerably.
    For children who rely on eating at school during the 
academic year, summer vacation can be a long and stressful 3 
months, and the summer feed programs would help a lot.
    I am glad to see funds for nutrition education high on it 
on the School Nutrition Association agenda. Senator Lugar and 
Senator Harkin and I have been working for years to improve the 
nutritional quality of the food available to our children in 
school.
    Some of these are efforts in progress, like reducing the 
unhealthy foods in schools and, as Senator Harkin was saying, 
the fresh fruits and vegetables. We have come a long way. We 
have a long way to go. When we are going to provide nutritious 
food, we ought to provide nutritious education. It is a good 
time to start it.
    I met earlier this morning with members of the Vermont 
School Nutrition Association. I am always delighted when they 
come down here. They have been a great help to me and my staff, 
as had Marshall Matz, who is in the audience. They have helped 
a great deal.
    We are in this together. It is our children we're talking 
about. My children are grown but I see the next generation in 
my grandchildren and my neighbor's children. I cannot help but 
think, and I come from a low income part of our state, I cannot 
help but think though, think about not just dollars and cents. 
Think of this as something that touches our morality and 
conscience as a nation.
    We are blessed with so much. We are blessed with so much, 
how can we ever explain it to our conscience, to our maker, 
that we will leave hungry people in America. That is a shame 
and it is something we must always work and trying to stop.
    Thank you, Mr. Chairman, for having this hearing.
    The Chairman. Thank you, Senator Leahy.
    You can see from the comments from all of us up here how 
much we appreciate the great work you do and how much respect 
we have for this program.
    As we go through both the budget process as well as the 
appropriations process, we look forward to continuing a 
dialogue with the School Nutrition Association, and we think 
your input, your counsel and your advice.
    Obviously, we are in very difficult times from a budget 
deficit perspective, but I am very pleased that the President 
did recognize how valuable these programs are. Hopefully we can 
continue down the road of providing additional funding for you.
    The record is going to remain open for an additional 5 days 
for anyone who wishes to file a statement. Unless there is 
anything further, we are going to conclude this hearing.
    Again, thank you, ladies, for being here. I thank all of 
you in the audience for the terrific work you do for the future 
of America, which is our children. God bless you.
    [Whereupon, at 11:01 a.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             March 15, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0613.008

[GRAPHIC] [TIFF OMITTED] T0613.009

[GRAPHIC] [TIFF OMITTED] T0613.010

[GRAPHIC] [TIFF OMITTED] T0613.011

[GRAPHIC] [TIFF OMITTED] T0613.001

[GRAPHIC] [TIFF OMITTED] T0613.002

[GRAPHIC] [TIFF OMITTED] T0613.003

[GRAPHIC] [TIFF OMITTED] T0613.004

[GRAPHIC] [TIFF OMITTED] T0613.005

[GRAPHIC] [TIFF OMITTED] T0613.006

[GRAPHIC] [TIFF OMITTED] T0613.007

                                 <all>

</pre></body></html>
